September 20, 2010

STEVEN J. FORTE
SENIOR VICE PRESIDENT, OPERATIONS

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Postal Service Area and District Office Field Structure
        (Report Number FF-AR-10-224(R))

This report presents the results of our audit of the area and district office field structure
(Project Number 09BG005FF000). Our objective was to evaluate the effectiveness of
recent U.S. Postal Service area and district office consolidations and to determine
whether opportunities exist to consolidate further. The report responds to a request from
Senator Susan M. Collins, Ranking Member, Senate Committee on Homeland Security
& Governmental Affairs, to evaluate the U.S. Postal Service’s area and district office
structure, recent organizational changes, and next steps to enhance efficiency and
profitability. This audit addresses financial risk. See Appendix A for additional
information about this audit.

In 2009, the Postal Service announced plans to eliminate the New York Metro Area
office and six district offices – Central Florida, Central New Jersey, Erie, Massachusetts,
New Hampshire/Vermont, and Spokane – by consolidating their operations into other
offices.1 With the consolidations completed, the area and district office field structure
currently includes eight area and 74 district offices, costing approximately $1.5 billion
during fiscal year (FY) 2009. A recent U.S. Government Accountability Office (GAO)
report2 and U.S. Postal Service Office of Inspector General (OIG) testimony3 have
suggested, given the Postal Service’s financial crisis, that it should consider several
options to reduce costs – one of which is to reevaluate the area and district field
structure.


1
  The area consolidation was completed January 2010. The consolidation of the six district offices was completed
September 30, 2009.
2
  U.S. Postal Service Strategies and Options to Facilitate Progress toward Financial Viability (Report
Number GAO-10-455, dated April 12, 2010).
3
  Hearing before the Subcommittee on Financial Services and General Government Committee on Appropriations,
U.S. Senate, David Williams, Inspector General, OIG, Oral Statement on the Financial Situation of the Postal Service,
March 18, 2010.
Postal Service Area and District Office Field Structure                                             FF-AR-10-224(R)



Since 1992, the Postal Service’s workforce has decreased by almost 106,992
employees (13 percent); the cumulative total factor productivity has increased
approximately 11 percent; and mail processing automation has improved. By FY 2010,
mail volume is projected to be at the level it was in FY 1992. Since 1992, the Postal
Service’s field structure has also changed. The number of area offices has decreased
from 10 to eight and the number of district offices has decreased from 85 to 74.
However, a 2003 study for the President’s Commission on the Postal Service (“the
Commission”)4 suggested that, while the management structure was appropriately lean,
there was a real opportunity to continue to rationalize the network with regard to the
number of districts, post offices, and processing plants and this effort could enable a
reduction in the number of areas. Further, in 2007, the OIG recommended the Postal
Service develop a comprehensive workforce plan to assist with making decisions about
structuring and deploying its workforce.5

Conclusion

The Postal Service has significant opportunities to reduce costs by consolidating its field
structure. We identified two options the Postal Service should consider that would
reduce the number of area and district offices. Further, we identified a third option the
Postal Service should consider that would relocate area offices to headquarters. The
Postal Service should develop a comprehensive strategic plan that would guide future
field structure decisions and explore the viability of relocating area offices to
headquarters. At a minimum, this strategic plan would provide the Postal Service with a
method to evaluate and define an economic, efficient, and effective field structure to
oversee its universal service mission. The strategic plan would also provide the needed
foundation to develop a more flexible area and district field structure and workforce that
is responsive to changing demand. During the development of a comprehensive
strategic plan, fundamental issues such as the functional need for area and/or district
offices, right-sized staffing, operational impact, geographic distribution, and the ideal
location for area offices should be addressed.

Because consolidations were limited and management did not have documentation of
data used to make the decisions, we could not fully evaluate the effectiveness of the
recent area and district consolidations. However, headquarters, area, and district
management we interviewed believed the consolidations went smoothly and had no
negative impact on operations.




4
  In early June 2003, the Commission sought assistance from Unisys/Watson Wyatt in examining and assessing the
existing management structure to identify possible areas of opportunity to improve the Postal Service’s productivity,
reduce costs, enhance customer service and, overall, more effectively support the organization’s mission.
5
  The Postal Service’s Comprehensive Strategic Workforce (Report Number HM-AR-07-004, dated October 27,
2007).




                                                          2
Postal Service Area and District Office Field Structure                                         FF-AR-10-224(R)



Postal Service Can Consolidate Further

Although the Postal Service recently consolidated one area and six district offices, we
identified three other options, done separately or in combination, to consolidate its field
structure further:

       Eliminate 14 offices by consolidating districts that have offices within 50 miles of
        another district office.

       Eliminate four area and 32 district offices by consolidating those offices whose
        workhours and mail volume are both below the mean mail volume and
        workhours.

       Eliminate duplicative staff positions and better position area management to work
        strategically with headquarters by relocating all area offices to headquarters.

In exploring the viability of relocating area offices to headquarters and determining field
structure, the Postal Service should develop a comprehensive strategic plan. To
develop the plan, management should study spans of control, environmental6 and
operational factors, and other issues impacting the Postal Service. Having a
comprehensive strategic plan will enable the Postal Service to have a supportable
method to evaluate and oversee its universal service mission and adjust its
organizational structure when circumstances warrant. Such a plan would be useful in
developing a more flexible area and district field structure and a workforce that can
respond to changes in Postal Service operations. While the Postal Service did take a
step towards developing a workforce plan by contracting for a study of critical mission
skills, they have not yet developed a comprehensive plan that addresses the area and
district field structure.

Management could not address why a comprehensive strategic plan has not been
developed for area and district optimization. They stated they did not review all offices
for consolidations across the country for the 2009 consolidations, because it would have
taken significantly more time. Rather, management limited the district consolidations to
those they believed could be accomplished quickly with no negative impact to
operations. See Appendix B for our detailed analysis of this topic.

Implementing option 1, the most conservative of the options, closing district offices that
are within 50 miles of one another, the Postal Service can save approximately
$33.6 million annually or $289 million over 10 years. See Appendix C for monetary
impact. Option 2, closing area and districts that have less than the mean mail volume
and workhours, the Postal Service can save approximately $104 million annually or
$894 million over 10 years. We did not estimate the cost savings that could be realized

6
 Environmental factors include items such as labor contracts, legal limitations, and multiple stakeholders (for
example, Congress, U.S. taxpayers, mass mailers). The Postal Service must reconcile the often conflicting demands
of these groups to deliver on its mission.




                                                          3
Postal Service Area and District Office Field Structure                         FF-AR-10-224(R)



for option 3 due to the many factors associated with such a move. However, we believe
this option provides both overall cost savings and other non-financial benefits.

We recommend the senior vice president, Operations, in coordination with the vice
president, Employee Resource Management:

1. Develop a comprehensive strategic plan to guide future area and district field
   structure decisions. The plan should address environmental factors, mail volumes,
   technological advancements, operational considerations and other issues impacting
   Postal Service strategic goals.

2. Implement one or more of the three options, or combinations of portions of these
   options, for consolidating the area and district field structure:

       Consolidate district offices that are within 50 miles of one another.

       Consolidate area and district offices that have less than the mean mail volume
        and workhours.

       Relocate area offices to headquarters.

3. Develop a policy and process for performing a comprehensive evaluation of the area
   and district office structure at least every 5 years.

Postal Service Decisions and Estimates Need to Be Better Documented

The Postal Service could not always provide adequate documentation for decisions and
estimates to support:

       Area and district office consolidation decisions – for 2009 and prior years.
       Estimated and actual cost savings for 2009 and prior consolidations.

Management has established policies and procedures to assess, implement, and
document plant (Area Mail Processing [AMP]) consolidations. Included is a feasibility
study to determine whether there is a business case for relocating processing and
distribution operations from one location to another. All supporting documentation must
be kept on file at the area office for at least 3 years after headquarters’ approval of the
final post-implementation review (PIR), or after the last step is taken in the AMP
process, if the AMP is not approved. Following implementation, an approved AMP must
be reviewed twice to assess whether planned savings, workhours, and levels of service
are achieved. The PIR provides a process to evaluate the effectiveness of consolidating
mail processing operations. The PIR compares the proposed savings or costs to the
actual savings or costs after AMP implementation. Just as Postal Service AMP
consolidation decisions must be transparent, it is equally important that the Postal
Service document the rationale, costs and savings associated with other




                                                          4
Postal Service Area and District Office Field Structure                                                   FF-AR-10-224(R)



consolidations.7 Federal agencies also have requirements to make and preserve
records containing adequate and proper documentation of the organization, functions,
policies, decisions, procedures, and essential transactions of the agency. These
requirements are designed to furnish the information necessary to protect the legal and
financial rights of the government and of persons directly affected by the agency’s
activities.8

Postal Service personnel stated the 2009 consolidation decisions were made by senior
management and no documentation was available other than the factors9 they stated
were used to make the decisions. In some cases, the individuals responsible for the
calculations are no longer with the organization or the documentation no longer exists.
By not maintaining adequate documentation, the Postal Service could lose valuable
information to base future decisions. See Appendix B for our detailed analysis of this
topic.

We recommend the senior vice president, Operations, in coordination with the vice
president, Employee Resource Management:

4. Develop a policy and procedures to maintain adequate supporting documentation for
   all area and district consolidations or expansions as part of a comprehensive
   strategic plan.

Management’s Comments

Management agreed with recommendations 1, 3, and 4. They will develop a
comprehensive strategic plan and provide recommendations for future area and district
field structures by September 30, 2011. By March 31, 2012, management will develop a
policy and process for implementing evaluations of area and district structures, with
appropriate review intervals to be determined. Management will also outline how they
will maintain documentation to support policies and procedures for area and district
consolidations, expansions, and major cost-saving initiatives. Management anticipates
to be completed by March 31, 2012.

Management disagreed with recommendation 2 and stated that, before considering
these or other options, they need to develop the comprehensive strategic plan. This
plan will include a thorough assessment and analysis of all areas and district field
structures. As such, they could not describe what actions they would take to put the
noted monetary impact to better use. However, as noted in their response to
recommendation 1, they will provide recommendations for future area and district field
structures by September 30, 2011.

7
  Handbook PO-408, Area Processing Guidelines, Sections 2 and 7, March 2008.
8
  Records Management by Federal Agencies, (44 U.S.C. § 3101).
9
  Factors used to make the decisions included the ability to recruit, proximity to other districts, distance to travel within
a district, ability to combine smaller districts with larger ones, and workload. Management stated these factors
allowed the consolidations to occur with minimal risk and without disruption to operations or service performance.




                                                             5
Postal Service Area and District Office Field Structure                     FF-AR-10-224(R)




Management also disagreed with our third option of relocating area offices to
headquarters, stating that area vice presidents are already consistently involved in
strategic and tactical operations and that implementing this option would cost $61
million.

Finally, management clarified that the factors they used to make the 2009
consolidations allowed the consolidations to occur with minimal risk and without
disruption to operations or service performance. See Appendix E for management’s
comments in their entirety.

Evaluation of Management’s Comments

We understand that development of the comprehensive strategic plan can assist
management in determining the best options to address the area and district field
structure. Based on management’s response that they will provide recommendations for
future area and district field structures in conjunction with development of the plan, the
OIG considers management’s comments responsive to recommendations in the report.
However, we continue to believe the Postal Service needs to consider in the
comprehensive strategic plan “the ideal location for area offices,” as long-term costs
savings and other non-financial benefits may be available. Further, we clarified the
report to include management’s statement that the factors they used to make the 2009
consolidations allowed the consolidations to occur with minimal risk and without
disruption to operations or service performance.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial – West, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments




                                                          6
Postal Service Area and District Office Field Structure       FF-AR-10-224(R)



cc: Patrick R. Donahoe
    Joseph Corbett
    Anthony J. Vegliante
    Vice Presidents, Area Operations
    Stephen Masse
    Corporate Audit and Response Management




                                                          7
Postal Service Area and District Office Field Structure                                               FF-AR-10-224(R)



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service currently has eight area and 74 district offices as shown on Map 1.10
                           Map 1: Locations of Area and District Offices




                  Source: Postal Service Intranet, Maps – FY 2010 PowerPoint and Inside Postal Service/Field.

The Postal Service’s area offices have the responsibility within a specific geographical
area to ensure headquarters directives are implemented; manage major functional
groups having area-wide impact; and oversee districts, processing and distribution
centers, network distribution centers, airport mail centers, international service centers,
and remote encoding centers. The functional units within each area office include the
following:
        Operations Programs Support.
        Finance.
        Human Resources.
        Marketing.

10
  The yellow stars and red dots represent locations of area and district offices, respectively. The dark lines delineate
the area boundaries and the lighter lines delineate district boundaries.




                                                           8
Postal Service Area and District Office Field Structure                                         FF-AR-10-224(R)



The Postal Service’s district offices report to an area, and are responsible for major
functional groups having district-wide impact, including oversight of post offices and
delivery distribution centers. In addition, the district offices coordinate the day-to-day
management of the following functional units:

          Post Office™ Operations.
          Operations Programs Support.
          Finance.
          Human Resources.
          Information Systems.
          Marketing.

In FY 2009, the Postal Service spent $212 million and $1.3 billion to support the area
and district offices, respectively. Table 1 presents the breakdown of FY 2009 costs for
areas and districts.11

                  Table 1: FY 2009 Costs to Support Area and District Offices

                                 Costs                           Area            District
                    Compensation                               $119,106,969     $970,740,769
                    Benefits and Incentives12                    67,201,339       31,122,915
                    Services                                      6,519,966       71,750,229
                    Travel                                        6,012,895       18,962,427
                    Rent                                          4,692,316       17,893,885
                    Depreciation and Amortization                 2,828,236       18,885,494
                    Equipment and Supplies                        2,228,872       36,824,868
                    Miscellaneous                                 1,654,822         5,257,096
                    Utilities                                       661,075       88,297,240
                    Information Technology                          435,188       10,816,219
                    Vehicle Maintenance and Usage                   273,911       11,885,893
                    Training                                        141,665         1,135,577
                    Communications                                   21,956           794,738
                    Total                                      $211,779,210   $1,284,367,350
                    Total for Area and Districts                     $1,496,146,560
                    Source: Postal Service Integrated Financial Planning.

Since 1992, the Postal Service has changed its area and district office field structure
several times. Table 2 shows some of the most significant changes.




11
     Appendix D provides the costs for each area and district office.
12
     Area benefits and incentives include $57.6 million for unemployment compensation.




                                                           9
Postal Service Area and District Office Field Structure                                           FF-AR-10-224(R)




            Table 2: Major Changes to Area and District Field Structure (1992-2009)


     Year       Number of                         Change to Area and District Structure
             Areas   Districts
     1992     10        85       Five regions, 73 field divisions and 144 management sectional centers
                                 (MSC) were replaced by 10 areas and 85 districts.
     2002      8         85      The Midwest and Mid-Atlantic areas were consolidated into other areas.
     2003      8         80       Springfield District absorbed by New Hampshire and Middlesex-
                                     Central Districts.
                                  Akron District absorbed by Cincinnati and Cleveland Districts.
                                  Lancaster District absorbed by the Philadelphia and Harrisburg
                                     Districts.
                                  Long Beach District absorbed by Los Angeles and Santa Ana
                                     Districts.
                                  San Jose District absorbed by Oakland, Sacramento and Van Nuys
                                     Districts.
     2006      9         80      Capital Metro Area is created.
     2009      8         74       NY Metro Area absorbed by Northeast Area.
                                  Central Florida District absorbed by Suncoast and South Florida
                                     Districts.
                                  Central New Jersey District absorbed by Northern New Jersey and
                                     South Jersey Districts.
                                  Erie District absorbed by Pittsburgh District and renamed the Western
                                     Pennsylvania District.
                                  Massachusetts District absorbed by Connecticut Valley and Greater
                                     Boston Districts.
                                  New Hampshire/Vermont District absorbed by Maine District and
                                     renamed Northern New England District.
                                  Spokane District absorbed by Salt Lake and Seattle Districts.
     Source: The United States Postal Service, An American History 1775-2006; 2002 and 2003 Comprehensive
     Statement on Postal Operations; PostalReporter.com; and Postal Service News Link Extra.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the effectiveness of the 2009 Postal Service area and
district office consolidations and to determine whether opportunities exist to consolidate
further. Additionally, the report responds to a request from Senator Susan M. Collins to
evaluate the Postal Service’s area and district office structure, recent organizational
changes, and next steps to enhance efficiency and profitability.

To accomplish our objective, we analyzed Postal Service financial and facilities data
from the Enterprise Data Warehouse (EDW);13 workhours from the eFlash System; mail
volume data from Revenue, Pieces and Weights (RPW) System; and human resources

13
  A warehouse that provides a single repository for managing the Postal Service's corporate data assets and a
common source of corporate data across Postal Service organizations.




                                                        10
Postal Service Area and District Office Field Structure                                          FF-AR-10-224(R)



data from the Human Capital Enterprise System (HCES)14 for the period October 2008
through May 2010. In addition, we reviewed the OIG’s Performance and Results
Information Systems (PARIS) models to identify at risk districts. We also interviewed
Postal Service Headquarters managers and judgmentally selected and interviewed area
and district management personnel involved with the 2009 consolidations. Furthermore,
we researched and evaluated major companies regarding recent consolidations and/or
changes to their management structures. We also conducted a blog to gather
information from interested stakeholders on whether or not the area and district field
structure should be consolidated further.

We conducted this performance audit from August 2009 through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on August 19, 2010, and included their comments
where appropriate. We verified accuracy of the data by confirming our analysis and
results with Postal Service management and other data sources. In addition, the OIG
tests the financial information in EDW, RPW15 and HCES as part of its annual financial
statement audits. We did not perform tests of the eFlash system; however, this is the
system management uses for their analysis. We determined the information to be
sufficiently reliable for our audit.




14
   The HCES is a fully integrated human resource system featuring streamlined processes that are standardized,
automated, and results in a single view of the employee.
15
   The Postal Service has a significant deficiency related to RPW. Specifically, design gaps exist related to
inadequate general computer controls and documentation of management oversight.




                                                        11
Postal Service Area and District Office Field Structure                               FF-AR-10-224(R)



PRIOR AUDIT COVERAGE


                              Report             Final Report
    Report Title             Number                  Date                   Report Results
The Postal                 HM-AR-07-004           9/26/2007      The Postal Service has not
Service’s                                                        developed and implemented a
Comprehensive                                                    comprehensive strategic workforce
Strategic Workforce                                              plan that addresses the five key
Plan                                                             elements essential to successful
                                                                 workforce planning. Management
                                                                 agreed with the recommendations.
Location of                SA-MA-08-002            6/17/2008    The Postal Service may benefit from
Southeast Area                                                  the Southeast Area office moving to
Office Space                                                    another location within the area they
                                                                serve. Management agreed with the
                                                                recommendations.
Restructuring              GAO-09-958T             8/6/2009     The testimony states that broad
Urgently Needed to                                              restructuring is needed to help the
Achieve Financial                                               Postal Service achieve financial
Viability                                                       viability. The testimony suggests
                                                                reviewing the need for nine area and
                                                                74 district offices.
U.S. Postal Service         GAO-10-455             4/12/2010    The report suggests the Postal
Strategies and                                                  Service can reduce operational costs
Options to Facilitate                                           by further streamlining its field
Progress toward                                                 structure.
Financial Viability




                                                      12
Postal Service Area and District Office Field Structure                        FF-AR-10-224(R)



                               APPENDIX B: DETAILED ANALYSIS

On March 20, 2009, the Postal Service announced the closing of six district offices and,
on July 2, 2009, the closing of one area office. Operations of these closed offices were
absorbed by other offices. Management stated these consolidations were initiated as a
cost-saving measure and the rapid decline in revenue and mail volume factored into the
overall decision to reduce the number of districts and area offices. Further,
management stated the factors they used to make the decisions included the ability to
recruit employees, proximity to other districts, distance to travel within a district, the
ability to combine smaller districts with larger ones, and workload.

The consolidations were not undertaken based on a comprehensive study or plan and
were limited to offices management believed could be consolidated quickly without
negative impact on operations. Management stated they did not review all possible
offices across the country for the 2009 consolidations, because it would have taken
significantly more time. Management could not address why a comprehensive strategic
plan has not been developed for area and district office optimization. However, the
Postal Service estimated the consolidations would save $100 million annually.
Management at headquarters and at the affected area and district offices believe the
consolidations, although challenging due to the impact on employees, were a success.

We believe the Postal Service has options to consolidate further. Additionally, we
believe a comprehensive strategic plan would enable the Postal Service to quickly
assess the future need to reduce or increase area and district structure based on solid
criteria and accompanying supporting evidence.

Postal Service Can Consolidate Further

The Postal Service has at least three options for further consolidation of its area and
district structure. These options include consolidating offices that are in close proximity
to one another, closing offices that are below the mail volume and workhours mean, and
relocating area offices to headquarters.

Option 1- Consolidating offices that are in close proximity of one another

The first option the Postal Service should consider is the need for district offices that are
as close as 11 miles away from another district office. Using the proximity method
partially used by the Postal Service in its latest round of consolidations, the Postal
Service can eliminate 14 districts that are within 50 miles of another district office. We
estimate the Postal Service can save approximately $33.6 million annually or $289
million over 10 years, by closing the 14 districts within 50 miles of another district and
eliminating duplicate managerial positions. Further cost savings may be realized from
additional positions that may be eliminated. See Appendix C for monetary impact.




                                                      13
Postal Service Area and District Office Field Structure                                      FF-AR-10-224(R)




Option 2 – Consolidating Offices that have significantly less mail volume and workhours

The second option the Postal Service should consider is the need for areas and districts
that have significantly less mail volume and workhours than other areas and districts.
Workhours for districts are budgeted based on the number of workhours needed for the
operations or facilities. Totaling the district workhours by area shows the workhours
assigned to areas vary significantly as shown in Table 3.

                 Table 3: Mail Volume and Workhours Cumulated by Area

                          Mail Volume                                              Workhours
              Total for Districts    Percentage                       Total for Districts   Percentage
               Within the Area      Compared   to                      Within the Area     Compared   to
              (October - December    the Largest                      (October - December   the Largest
  Area               2009)              Area                Area             2009)             Area
   1               3,210,996,107             35%             1                25,863,008            54%
   2               4,012,584,500             44%             2                30,596,140            64%
   3               4,091,707,182             45%             3                32,543,852            68%
   4               4,608,787,963             50%             4                37,141,661            78%
   5               4,918,241,209             54%             8                38,564,642            81%
   6               7,245,299,593             79%             7                41,459,823            87%
   7               8,157,259,020             89%             5                45,043,439            95%
   8               9,175,762,716            100%             6                47,662,188           100%
Total             45,420,638,290          -               Total              298,874,753         -
Mean               5,677,579,786          -               Mean                37,359,344         -
Source: Postal Service Integrated Financial Planning and eFlash System.

As shown in the table, four areas have less mail volume and workhours than the other
areas.

        Areas 1, 2, 3, 4, and 5 have less than the mean mail volume of 5.7 billion pieces.
         Furthermore, Area 1 has only 35 percent of the mail volume of Area 8, the area
         with the highest mail volume figures.

        Areas 1, 2, 3, and 4 have less than the mean workhours of 37.4 million hours.
         Further, Area 1 has 54 percent of the workhours of Area 6, the area with the
         highest workhour figures.

The Postal Service could consolidate area offices so mail volume and workhours are
more equally distributed. We estimate that eliminating the four area offices that were
below the mean in both mail volume and workhours would save the Postal Service
$27 million annually or $233 million over 10 years.

Similarly, Table 4 shows that mail volume and workhours vary significantly by district.




                                                       14
Postal Service Area and District Office Field Structure                                      FF-AR-10-224(R)




                       Table 4: Mail Volume and Workhours by District
                               Mail Volume                                          Workhours
                                          Percentage                                           Percentage
                  (October – December   Compared to the               (October – December    Compared to the
       District          2009)          Largest District   District          2009)           Largest District
1         1                33,610,647                1%       1                   718,445                 10%
2         2                73,851,681                3%       3                   950,047                 13%
3         3                76,484,200                3%       4                  1,200,198                16%
4         4                78,532,792                3%       2                  1,398,097                19%
5         5                79,987,184                3%       5                  1,514,288                20%
6         6               146,164,478                6%       8                  1,816,232                24%
7         7               180,656,868                7%      13                  2,134,222                29%
8         8               198,579,297                8%      10                  2,169,940                29%
9         9               225,228,651                9%      11                  2,412,142                32%
10       10               229,147,541                9%      20                  2,526,356                34%
11       11               243,063,477                9%       6                  2,576,184                35%
12       12               246,699,333                9%      54                  2,665,895                36%
13       13               264,152,846               10%      37                  2,723,943                37%
14       14               273,507,273               10%      27                  2,809,565                38%
15       15               276,462,144               11%      52                  2,833,268                38%
16       16               280,278,044               11%      15                  2,888,457                39%
17       17               282,371,281               11%      16                  2,916,237                39%
18       18               298,745,041               11%      26                  2,988,401                40%
19       19               300,678,744               11%      34                  3,043,490                41%
20       20               335,549,223               13%      18                  3,091,077                41%
21       21               359,564,563               14%      40                  3,143,205                42%
22       22               362,436,817               14%      29                  3,425,939                46%
23       23               368,509,316               14%      17                  3,453,186                46%
24       24               392,405,514               15%      55                  3,464,468                46%
25       25               392,843,557               15%      14                  3,521,323                47%
26       26               396,695,684               15%      31                  3,536,376                47%
27       27               409,784,694               16%      62                  3,604,905                48%
28       28               416,674,533               16%      28                  3,623,544                49%
29       29               429,909,746               16%      47                  3,711,135                50%
30       30               438,531,306               17%      21                  3,777,642                51%
31       31               449,838,726               17%      48                  3,800,673                51%
32       32               453,333,750               17%      12                  3,803,635                51%
33       33               462,966,215               18%      46                  3,825,300                51%
34       34               465,712,313               18%      45                  3,830,788                51%
35       35               469,508,490               18%      32                  3,884,219                52%




                                                      15
Postal Service Area and District Office Field Structure                                       FF-AR-10-224(R)


                               Mail Volume                                           Workhours
                                           Percentage                                           Percentage
                  (October – December    Compared to the               (October – December    Compared to the
       District          2009)           Largest District   District          2009)           Largest District
36       36               474,979,692                18%      59                  3,884,500                52%
37       37               482,949,170                18%      44                  3,895,022                52%
38       38               487,418,260                19%      24                  3,964,358                53%
39       39               495,814,008                19%      57                  3,999,646                54%
40       40               506,001,597                19%      30                  4,073,778                55%
41       41               507,760,588                19%      19                  4,193,805                56%
42       42               514,664,415                20%      58                  4,248,321                57%
43       43               523,835,245                20%      69                  4,313,982                58%
44       44               538,215,096                21%       7                  4,325,451                58%
45       45               544,431,768                21%      60                  4,352,112                58%
46       46               562,929,688                22%      36                  4,356,584                58%
47       47               575,375,348                22%      43                  4,389,987                59%
48       48               583,009,684                22%      25                  4,523,120                61%
49       49               587,604,705                22%      68                  4,542,658                61%
50       50               608,836,863                23%      22                  4,644,292                62%
51       51               631,127,644                24%      39                  4,647,993                62%
52       52               635,805,847                24%      72                  4,655,748                62%
53       53               677,489,652                26%      64                  4,674,385                63%
54       54               703,062,207                27%       9                  4,689,578                63%
55       55               741,151,384                28%      41                  4,832,318                65%
56       56               817,797,840                31%      53                  4,925,925                66%
57       57               825,459,725                32%      23                  4,936,912                66%
58       58               871,110,834                33%      71                  4,976,400                67%
59       59               935,914,505                36%      70                  5,018,078                67%
60       60               936,079,282                36%      74                  5,129,320                69%
61       61               941,858,914                36%      33                  5,173,590                69%
62       62               952,685,894                36%      67                  5,217,117                70%
63       63               990,034,539                38%      38                  5,262,894                71%
64       64              1,002,614,908               38%      65                  5,443,750                73%
65       65              1,006,250,391               38%      50                  5,479,086                73%
66       66              1,011,471,681               39%      49                  5,552,319                74%
67       67              1,028,641,080               39%      51                  5,568,076                75%
68       68              1,040,627,918               40%      63                  5,711,393                77%
69       69              1,457,932,164               56%      66                  5,722,302                77%
70       70              1,558,206,505               60%      35                  5,737,508                77%
71       71              1,743,697,880               67%      42                  5,814,963                78%
72       72              1,945,798,297               74%      56                  5,995,268                80%
73       73              1,964,287,201               75%      73                  6,231,958                84%




                                                       16
Postal Service Area and District Office Field Structure                                          FF-AR-10-224(R)


                                 Mail Volume                                            Workhours
                                             Percentage                                            Percentage
                    (October – December    Compared to the                (October – December    Compared to the
         District          2009)           Largest District   District           2009)           Largest District

74         74              2,615,239,903              100%      61                   7,456,964              100%
          Total           45,420,638,290          -            Total               292,344,283          -

          Mean              613,792,409           -            Mean                  3,950,598          -
Source: Postal Service Integrated Financial Planning and eFlash System.

As shown in Table 4, mail volume and workhours vary between districts:

         Fifty districts have less than the mean mail volume of 614 million pieces.
          Furthermore, 52 districts have less than 25 percent of the mail volume of District
          74, the district with the highest mail volume figures.

         Thirty-seven districts have less than the mean workhours of 3.95 million hours.
          Furthermore, 66 districts have less than 75 percent of the workhours of
          District 61, the district with the highest workhour figures.

If the Postal Service were to eliminate the 32 districts with both mail volume and
workhours below the mean, we estimate it could save $77 million annually or
$661 million over 10 years.

Option 3 – Relocating area management to Postal Service Headquarters

Another option for the Postal Service to consider is relocating area offices to
headquarters. We believe the Postal Service can benefit having the area vice
presidents (AVP) located at headquarters without significantly impacting its operations.

         The synergy and dynamics attained by having knowledgeable, operational
          personnel with strategic and other operational personnel will enhance the Postal
          Service’s strategic and tactical direction. Pooling other resources such as legal
          and customer relations personnel; being able to collaborate with budget and
          accounting staff or simply communicating in person with peers will foster
          common management practices and positively benefit Postal Service. In addition,
          the AVPs could quickly group with their headquarters functional counterparts,
          when necessary, and disseminate critical decisions without delay to the districts
          for execution of those decisions.

         The available technology allows anyone to communicate within seconds to any
          facility or office. Additionally, technology advances can remove redundancies and
          allow for efficiencies in common support functions that currently exist in both the
          area and district offices. However, the Postal Service should not overlook
          expenses in information technology (IT) support that tend to be costly. Integrating
          area and headquarters IT would be another source of savings.




                                                         17
Postal Service Area and District Office Field Structure                      FF-AR-10-224(R)



       Partnering AVPs in one location will promote brainstorming, identifying best
        practices, and standardizing processes. This collaboration can make
        comparisons very effective and benchmarking highly successful.

The 2003 President’s Commission suggested that the role of the AVPs be expanded in
providing input to strategic decisions as the AVP position serves as the critical control
point for quickly and consistently disseminating organization directives into their
geographic entity. They added that headquarters bears the primary responsibility for
determining the strategy and providing organizational oversight; however, given the
magnitude and importance of operations to the Postal Service, the operations side of
the organization may be under-represented in the development of key strategies and
new programs. Having the AVPs located in headquarters should enhance opportunities
for AVPs to be more integral to this function.

The 2003 President’s Commission further suggested improving headquarters and area
staff coordination and integration with operations by presenting ideas for ensuring that
necessary coordination and shared services activities are delivered effectively. They
stated the multi-tiered matrix creates some degree of uncertainty and confusion that is
evident in duplicate initiatives and competing requests for information or action that flow
through the management structure. They added there is a significant opportunity to
more clearly define staff responsibilities, identify potential duplication, improve
coordination and control over new initiatives, and ultimately, possibly reduce the number
of support staff roles. If areas were relocated to headquarters, common support
functions, such as mission support, marketing and finance, could be evaluated for
consolidation between current headquarters or field functions. For example, the eight
area offices currently have eight separate mission support functions. With a relocation
of the areas to headquarters, those eight functions could be consolidated into one
overall group to support the districts, significantly cutting costs.

While relocating area offices to headquarters would increase the distance to districts
and likely increase travel costs, the current structure has area offices already located a
significant distance away from the district offices. Table 5 presents information on how
far district offices are currently from the area headquarters.




                                                      18
Postal Service Area and District Office Field Structure                                               FF-AR-10-224(R)



                Table 5: Distances Between Districts and Their Area Office

                                                 Distance                                              Distance
                                                (miles from                                           (miles from
            District Office          Area       area office)          District Office      Area       area office)
      Alaska                      Western             3,210     Alabama                 Southeast              232
      Honolulu                    Pacific             2,621     Western New York        Eastern                220
      Caribbean                   Northeast           1,655     Mississippi             Southeast              215
      Seattle                     Western             1,333     Central Pennsylvania    Eastern                214
      Portland                    Western             1,256     Appalachian             Eastern                214
      South Florida               Southeast              993    Tennessee               Southeast              208
      Northland                   Western                883    Greater Michigan        Great Lakes            207
      Arizona                     Western                807    Northern New England    Northeast              205
      Suncoast                    Southeast              797    Oklahoma                Southwest              204
      Nevada-Sierra               Western                758    Greater Indiana         Great Lakes            198
      North Florida               Southeast              689    Columbus                Eastern                176
      Hawkeye                     Western                666    Sierra Coastal          Pacific                151
      Albuquerque                 Southwest              644    Long Island             Northeast              141
      Dakotas                     Western                623    Northern New Jersey     Northeast              133
      Mid-America                 Western                603    Triboro                 Northeast              129
      Big Sky                     Western                552    Northern Ohio           Eastern                128
      Louisiana                   Southwest              526    New York                Northeast              125
      Salt Lake City              Western                523    Richmond                Capital                122
      Sacramento                  Pacific                499    Los Angeles             Pacific                114
      Greater South Carolina      Capital                498    Greater Boston          Northeast              106
      San Francisco               Pacific                496    Albany                  Northeast              103
      Central Plains              Western                495    Westchester             Northeast               99
      Bay-Valley                  Pacific                484    Lakeland                Great Lakes             91
      South Georgia               Southeast              461    Southeast New England   Northeast               84
      Atlanta                     Southeast              404    Santa Ana               Pacific                 82
      Mid-Carolinas               Capital                398    Baltimore               Capital                 42
      Kentuckiana                 Eastern                381    Chicago                 Great Lakes             30
      Southeast Michigan          Great Lakes            325    Fort Worth              Southwest               29
      South Jersey                Eastern                323    Central Illinois        Great Lakes             29
      Arkansas                    Southwest              320    Capital                 Capital                 26
      Philadelphia Metropolitan   Eastern                320    Northern Virginia       Capital                 25
      Greensboro                  Capital                316    Dallas                  Southwest               16
      Detroit                     Great Lakes            310    Western Pennsylvania    Eastern                 11
      Gateway                     Great Lakes            294    Connecticut Valley      Northeast               10
      Cincinnati                  Eastern                279    Colorado/Wyoming        Western                  9
      Rio Grande                  Southwest              268    Northern Illinois       Great Lakes              3
      Houston                     Southwest              236    San Diego               Pacific                  1
       Source: Maps.google.com and batchgeo.com

Excluding Honolulu, Alaska, and the Caribbean, because of their distance from the
continental U.S., there are 15 districts located more than 500 miles from the area office.
For example, the Seattle and Portland Districts are more than 1,000 miles from the
Western Area headquarters.

We did not estimate the cost savings that could be realized because of the many factors
associated with such a move. However, we believe this option provides overall cost
savings and other non-financial benefits.




                                                           19
Postal Service Area and District Office Field Structure                                                 FF-AR-10-224(R)



Developing a Comprehensive Strategic Plan

In determining field structure coupled with exploring the viability of relocating area
offices to headquarters, the Postal Service should develop a comprehensive strategic
plan. To develop a plan, management should study spans of control, environmental and
operational factors, and other issues impacting the Postal Service. By increasing spans
of control and reducing organizational layers, companies have the opportunity to
increase revenues by simplifying decision-making, enhancing customer responsiveness
and unleashing innovation.16 Having a comprehensive strategic plan will enable the
Postal Service to have a supportable method to evaluate and oversee its universal
service mission and adjust its organizational structure when circumstances warrant.
Such a plan would be useful in developing a more flexible area and district field
structure and workforce that can respond to changes in Postal Service operations.
Previous studies and reports have suggested that the Postal Service develop a
comprehensive strategic plan.

In 2003, the Commission recommended the Postal Service restructure its management
to eliminate redundant positions and geographical divisions and to standardize and
clarify job functions. In addition, the Commission recommended the Postal Service
conduct a review of the entire management structure, size, and cost to determine
whether each component is necessary and consistent with the best practices of the
private sector, and require managers to justify their functions and the size of their staffs.
Furthermore, a study by a consultant hired by the Commission suggested that, although
the management structure was appropriately lean, there was a real opportunity to
continue to rationalize the network.17 The report stated the clearest opportunities for
continued rationalization appear to exist at three levels: the performance cluster (or
district); the post office; and the processing plant. Additionally, continued rationalization
of the network could enable a reduction in the number of areas, thus a possible
reduction in the number of management positions and the number of managers needed
to staff them.

Further, in 2007, the OIG recommended the Postal Service develop guidance and
procedures for creating a comprehensive workforce plan to assist with making decisions
about structuring and deploying its workforce.18 In response to the report, management
completed a study of critical mission positions19 and discussed it with the vice
presidents and other senior officials responsible for the positions. The study was based
on strategic alignment with the organization and took the first step towards the
16
   Corporate Leadership Council. Reporting Structure Guidelines: Determining Optimal Spans of Control and
Management Layers. Corporate Executive Board. August 2009.
17
   In early June 2003, the Commission sought assistance from Unisys/Watson Wyatt in examining and assessing the
existing management structure to identify possible areas of opportunity to improve the Postal Service’s productivity,
reduce costs, enhance customer service and, overall, more effectively support the organization’s mission.
18
   The Postal Service’s Comprehensive Strategic Workforce (Report Number HM-AR-07-004, dated September 26,
2007).
19
   The Postal Service contracted with Right Management, a Manpower Company, an employment lifecycle consulting
firm. Their scope was limited to identifying the 10 critical, mission-enhancing roles and job functions that will form the
foundation for other strategic goals.




                                                           20
Postal Service Area and District Office Field Structure                                           FF-AR-10-224(R)



formulation of a full workforce plan. Management stated, however, that they are using
the critical mission study as the workforce plan for headquarters, areas, and districts.

In a June 2008 report,20 the OIG reported that an area office may benefit by being in
another location and recommended that management:

          Revise current policies and procedures concerning the determination of optimal
           facility location, to specifically include area and administrative office space.

          Conduct a detailed analysis to determine the optimal location for the Southeast
           Area office based on the policies, procedures, and criteria that are developed.

In response to the OIG report, the Postal Service stated that they conducted the study;
however, given the current economic condition and an ongoing effort to review all
leased space for possible consolidation into owned space, the Postal Service decided
not to pursue relocation of the area office. Management stated they would review their
internal procedures and make sure there are adequate policies to address the optimal
facility location when dealing with area or administrative office space. Such policies and
procedures would be useful in a comprehensive strategic plan.

Benchmarking/Best Practices

The Postal Service is a unique entity and benchmarking with other organizations is
extremely difficult. Few organizations are as large as the Postal Service and face the
same environmental factors. However, adapting best practices from other organizations
could assist the Postal Service with identifying new ideas and processes. For example,
in January 2010, United Parcel Service announced it would reduce its U.S. regions from
five to three and its districts from 46 to 20, eliminating 1,800 management and
administrative jobs. Company officials stated that they periodically form a
cross-functional team to review the organization. They stated that the reduction in the
number of offices was possible due to efficiencies achieved using technology. They
determined that some positions could change or be eliminated based on technological
advances. Management reviews position descriptions every 2 years as they change job
responsibilities frequently. In addition, they stated the organization continually evaluates
its customer base to ensure that offices are properly located. They used external
resources/consultants to review its human resource organization and used its past
reorganizations as a guide for the current reorganization.

Taking Performance into Consideration

In developing the comprehensive strategic plan, the Postal Service may also want to
take district performance into consideration. The OIG PARIS models analyze Postal
Service-wide data and assess risks by district. These models include Network and
Delivery Optimization, Cost and Controls, Maintenance, Human Capital Optimization,
20
     Location of Southeast Area Office Space (Report Number SA-MA-08-002, dated June 17, 2009).




                                                        21
       Postal Service Area and District Office Field Structure                                                  FF-AR-10-224(R)



       Revenue Generation and Assurance, Retail Customer Service, Facilities, and
       Workplace Environment. Sixteen districts appear on three or more high-risk lists.
       Districts that appear on a high risk list are deemed most at risk. See Table 6 for the list
       of districts that appear on three or more high-risk lists.

                           Table 6: Districts on Three or More OIG High-Risk Lists

                                                                                 OIG Risk Models
                                                                                             Revenue
                               Network and      Costs                            Human      Generation     Retail
                                 Delivery        and                             Capital        and      Customer                  Workplace
                                                                          21
Area            District       Optimization    Controls   Maintenance          Optimization Assurance     Service    Facilities   Environment
 5                 7                              X                                                         X                         X

 5                 2                              X              X                                          X                         X

 5                 9                              X             X*                              X           X            X

 5                 6                              X             X*

 7                68                 X            X                                X

 7                64                 X                                             X                                                  X

 6                35                                                                            X           X                         X

 3                23                              X                                             X           X

 3                57                                                               X                        X            X

 3                19                              X                                             X           X

 2                70                              X              X                 X

 2                38                                                               X            X                                     X

 8                48                                             X                 X                        X            X            X

 1                47                 X            X              X                 X

 1                45                                             X                 X                                     X

 1                32                 X                           X                              X                                     X
       *District 9 and District 6 are on both maintenance high-risk lists




       21
         The maintenance category comprises two risk models that address (1) overall equipment effectiveness/machine
       under-utilization and (2) custodial/building maintenance.




                                                                     22
Postal Service Area and District Office Field Structure                                               FF-AR-10-224(R)



Blog Comments

In May 2010, the OIG launched an external blog for the public to comment on the Postal
Service’s current field structure. Most of the comments supported additional area and
district office and staffing consolidations.22 For example, the respondents stated that
technological advances allow anyone to communicate within seconds to any facility,
area or headquarters office. Additionally, areas and districts maintain the same
functions at each of their locations (for example, Finance, Marketing, Personnel,
Maintenance, and Operations). Some of these functions could be further centralized,
ultimately reducing the number of managers and staff.

Decisions and Estimates Need to Be Better Documented

Postal Service management could not always provide adequate analysis or supporting
documentation on their 2009 consolidation decisions and cost-savings estimates or for
prior years’ consolidations. By not maintaining documentation on the decisions or the
costs and savings, the Postal Service could lose valuable information to base future
decisions or perform vital analysis.

Maintaining adequate supporting documentation for the rationale and costs and savings
related to area and district consolidation decisions is a critical foundation upon which
future decisions can be improved. Management stated the factors used to make the
2009 consolidation decisions included the ability to recruit, proximity to other districts,
travel distance between a district, combining smaller districts with larger ones, and
workload. However, management could not provide supporting documentation to show
what these factors were or how they were used for the consolidated offices.

When management announced the consolidation decisions, they stated they anticipated
saving $100 million annually. Management did not have documentation for how they
arrived at the $100 million savings; because a former budget manager, who had since
retired, calculated the figure. Management contacted the retired manager and
determined the $100 million was arrived by projecting the elimination of 1,400 positions
with the consolidations and calculating a ratio of $1 million savings per 12 employees.
This resulted in $117 million, rounded down to the $100 million amount. Management
also did not have an analysis of the actual cost savings associated with the
consolidations but provided a recent report that showed a $47 million reduction in total
costs over the same period last year for the area and district offices that absorbed the
eliminated offices. It appears there has been cost savings, but the Postal Service had
not analyzed the accuracy of their original estimate.


22
   In response to a question if the Postal Service should consider further changes to its area and district
administrative offices, 634 respondents (91 percent) voted it should and 59 respondents (9 percent) voted it should
not. In response to a question on what changes should be made, 322 respondents (53 percent) voted to consolidate
districts; 189 (31 percent) voted to consolidate areas, and 100 (16 percent) voted for ‘other’. We received 57 narrative
comments, of which 49 (86 percent) favored further consolidation, one (2 percent) favored no further consolidation,
and seven (12 percent) either did not know or were focused on other topics.




                                                          23
Postal Service Area and District Office Field Structure                                       FF-AR-10-224(R)



The Postal Service did take a positive step to document how well the recent
consolidation went, by contracting with Accenture to review the New York Metro Area
closure and provide recommendations for the Postal Service to consider on future
efforts.23 The report outlined recommendations the Postal Service could use to better
implement future consolidations, such as:

        Evaluating processes and policies.

        Creating merger/management guidance, to define and compile program
         standards for approaches, tools and illustrative documents.

        Communicating broaden strategic goals, emphasizing the strategy and goals that
         are communicated beyond cost reductions.

        Providing placement support, to include implementation of staffing flexibility,
         placement assistance and proactively managing non-placed staff.

Management had very limited information available regarding area and district
consolidations prior to 2009. Management stated they used performance and mail
volumes as factors for prior consolidations; however, they were not able to provide
documentation on decisions or costs and savings.




23
   Accenture, Area and District Consolidation Recommendation, November 10, 2009. Accenture performed the review
from August through November 2009.




                                                      24
Postal Service Area and District Office Field Structure                                    FF-AR-10-224(R)



                                   APPENDIX C: MONETARY IMPACT

                    Finding                         Impact Category                   Amount
           Consolidate district offices         Funds Put to Better Use24             $289 million
           located within 50 miles of
           one another

The monetary impact calculation is based on 23 managerial positions the Postal Service
always eliminates when consolidating a district with another, such as the district
manager, manager finance, and manager human resources. While several other
positions will likely be eliminated, as was the case in the 2009 consolidations, it is
difficult to predict.

We calculated the amount by using a 10-year discounted cash flow at the net present
value. We claimed one-half of the salaries for the first year, with full salaries in every
year thereafter. We used the cost of borrowing of 3.875 percent to discount future years
to present value.




24
     Funds that could be used more efficiently by implementing recommended actions.




                                                         25
          Postal Service Area and District Office Field Structure                                              FF-AR-10-224(R)



                                APPENDIX D: DISTRICT OFFICE ATTRIBUTE DATA

          Tables 7, 8, and 9 present other area and district information requested by Senator
          Collins related to installation type, revenue, functions, number of employees by function
          and costs. Information requested on costs and mission for the area and district offices is
          provided in Appendix A. Mail volume and workhour information is provided in
          Appendix B.

                                         Table 7: Attributes of 74 District Offices

                                                                                            Number of Mail Facilities by
                                                           District Office Employees                  Type
                                                                                Percent
                                              Total                  Eligible   Eligible
                      25
                                Square       District                    to        to       Post                                Revenue
           District              Miles      Employees     Number      Retire     Retire     Office      BMEU       Other        (Millions)
                                                             CAPITAL AREA
Baltimore                           7,573         7,617         93         26      28%          334          68             6         $848
Capital                             2,262         8,306        101         30      30%          249          14            15          607
Greater South Carolina             23,539         5,587         80         20      25%          355          88             7          760
Greensboro                         25,192         8,399         98         23      23%          503         105             6          755
Mid-Carolinas                      25,407         7,486         92        18       20%          479         134             7          721
Northern Virginia                   4,107         5,561         84         20      24%          187          45            19          566
Richmond                           20,890         7,124         97        27       28%          532          80            34          716

Subtotal                          108,970        50,080        645        164          -      2,639         534            94       $4,973
                                                             EASTERN AREA
Appalachian                        38,069         5,360         89        16       18%          975          81             7         $734
Central Pennsylvania               19,561         9,112        120         33      28%          807          80            12         1,969
Cincinnati                         16,779         9,607        112        14       13%          562          87             7         1,228
Columbus                           16,403         5,057         73        12       16%          429          54             1         1,083
Kentuckiana                        41,027         7,456         99        19       19%          855         120             9          887
Northern Ohio                      11,753        10,050        115         18      16%          488          84             5          819
Philadelphia Metropolitan           3,646        10,394        114        33       29%          315          85            11         1,209
South Jersey                        6,482        10,447        109         33      30%          434         165             8         1,320
Western New York                   12,000         6,216         87         16      18%          422          56             3          537
Western Pennsylvania               22,215         9,780        118        19       16%          915          91             4          757

Subtotal                          187,935        83,479      1,036        213          -      6,202         903            67      $10,543
                                                          GREAT LAKES AREA
Central Illinois                   26,324        10,144        128        31       24%          645         112            10       $1,841
Chicago                               263         8,351        101         25      25%           90            4            7          579
Detroit                             4,511         7,353         86         14      16%          196          33             3          647


          25
            The following attributes have “as of” dates: total employees and district office employees, October 24, 2009; Post
          Office (including contract postal unit [CPU]), March 18, 2010; Business Mail Entry Unit (BMEU), May 13, 2010; and
          other mail facilities, October 24, 2009; revenue from October 1, 2008, through September 30, 2009.




                                                                     26
          Postal Service Area and District Office Field Structure                                           FF-AR-10-224(R)


                                                                                         Number of Mail Facilities by
                                                         District Office Employees                 Type
                                                                              Percent
                                             Total                 Eligible   Eligible
                      25
                               Square       District                   to        to      Post                                Revenue
           District             Miles      Employees    Number      Retire     Retire    Office      BMEU       Other        (Millions)
Gateway                          42,899         9,837       119           36      30%         815       199          6              1,037
Greater Indiana                  30,610        10,380        121         20      17%         724         162            12         1,316
Greater Michigan                 33,001         7,348        101        13       13%         636         232            13           607
Lakeland                         50,423        10,212        125        21       17%         754         142            10         3,040
Northern Illinois                  6,005        8,813         95        30       32%         244          82             3         1,715
Southeast Michigan                 5,153        6,145         77        20       26%         185          94             2           519

Subtotal                        199,189        78,583        953        210          -     4,289       1,060            66      $11,301
                                                         NORTHEAST AREA
Albany                          27,901          6,070         85        15       18%         726          90             5         $690
Caribbean                         3,425         2,981         55        11       20%         157           2             3           189
Connecticut Valley                7,893        11,971        137        39       28%         480         155            10         1,393
Greater Boston                    2,723        10,981        131         35      27%         325         142             6           899
Long Island                       1,154         7,996         95        26       27%         191          92             3         1,205
New York                            64         10,594        130         30      23%         120           4             4         1,289
Northern New England            49,079          7,699         96        20       21%       1,031         173             8           899
Northern New Jersey               2,889        16,049        159         42      26%         430          89            10         1,368
Southeast New England             3,118         5,852         91        24       26%         303          74             3           507
Triboro                            280          9,183        126         29      23%         184          13             4           513
Westchester                       5,810         5,380         80        27       34%         387          22             3           295

Subtotal                       104,336         94,756      1,185        298          -     4,334         856            59       $9,247
                                                           PACIFIC AREA
Bay-Valley                        8,245        10,924        103        29       28%         241          75             8         $739
Honolulu                          6,423         2,560         47        11       23%         155          54             1           211
Los Angeles                        526          9,021         90        24       27%         160          24             3         1,003
Sacramento                      47,317          9,060        105        24       23%         512         144             6         1,428
San Diego                       39,383          9,948        103        25       24%         301          85             5           765
San Francisco                   13,087          8,131         96        21       22%         267          56             5           512
Santa Ana                         2,083        12,599        118        33       28%         227          45             4         1,604
Sierra Coastal                  35,106          8,999        115        24       21%         313          79             5           738

Subtotal                       152,170         71,242        777        191          -     2,176         562            37       $7,000
                                                         SOUTHEAST AREA
Alabama                          49,510         7,345      100      21           21%         640         395             6         $640
Atlanta                          16,370        11,456        112        23       21%         364         187             5         1,386
Mississippi                      48,140         3,940         69        19       28%         484         314             3           441
North Florida                    26,508         7,653         98         22      22%         345         116             9           781
South Florida                      8,611       11,409        127        29       23%         236          22             6         1,123
South Georgia                    44,198         4,685         68        19       28%         482         167             5           536




                                                                   27
           Postal Service Area and District Office Field Structure                                           FF-AR-10-224(R)


                                                                                          Number of Mail Facilities by
                                                          District Office Employees                 Type
                                                                               Percent
                                              Total                 Eligible   Eligible
                   25
                                Square       District                   to        to      Post                                Revenue
        District                 Miles      Employees    Number      Retire     Retire    Office      BMEU       Other        (Millions)
Suncoast                          18,808        14,915       158           23      15%         501       56          14              1,436
Tennessee                         43,211        11,339        135          37     27%         691         367             7         1,036

Subtotal                         255,356        72,742        867         193         -     3,743       1,624            55       $7,379
                                                          SOUTHWEST AREA
Albuquerque                      129,432         3,109         51          11     22%         407          28             2         $197
Arkansas                          52,053         4,689         75          15     20%         674         118             1           484
Dallas                            31,751        11,608        121          23     19%         441          78             4         1,928
Fort Worth                       102,108         6,955         85          22     26%         538          65             4           577
Houston                           19,831        10,804         99          26     26%         364          61             7           874
Louisiana                         43,556         7,465         97          19     20%         550          49            5            447
Oklahoma                          63,487         6,118         86          21     24%         632          62             5           643
Rio Grande                       113,143        10,661        127          29     23%         673          75            10         1,027

Subtotal                         555,361        61,409        741         166         -     4,279         536            38       $6,177
                                                           WESTERN AREA
Alaska                           571,951         1,462         49          14     29%         283          18             2         $154
Arizona                          106,067         9,748        108          24     22%         419          59             9           973
Big Sky                          145,590         1,909         43           8     19%         367          59             0           158
Central Plains                   154,257         8,205        109          20     18%       1,175         111             8         1,475
Colorado/Wyoming                 200,992        11,470        130          37     28%         709         108             6           863
Dakotas                          159,250         3,552         72          19     26%         846         164             2           385
Hawkeye                           53,377         6,971         99          24     24%         983         130             4         1,124
Mid-America                       56,004         8,425        102          20     20%         848         112            2            930
Nevada-Sierra                    119,982         4,405         69          22     32%         232          19             3           470
Northland                         83,140        12,540        139          36     26%       1,041         163            12         2,277
Portland                         101,823         7,265         92          26     28%         521          61             9           738
Salt Lake City                   143,477         5,654         74          31     42%         452          65             5           897
Seattle                           81,636        11,740        123          27     22%         671         138            18         1,027

Subtotal                        1,977,546       93,346      1,209         308         -     8,547       1,207            80      $11,471
Grand Total                     3,540,863      605,637      7,413        1,743        -    36,209       7,282       496          $68,091
          Source: Postal Service Operations Administration and Planning; Human Resources Management Information
          Services; and Integrated Financial Planning. In addition, EDW.




                                                                    28
Postal Service Area and District Office Field Structure                                     FF-AR-10-224(R)



                         Table 8: Number of District Employees by Function
                                                    Number of Employees by Function26
                               Administrative   Operations
                                /Information     Program                Human
                                  Systems        Support    Finance    Resources    Marketing       Total
                                                  CAPITAL AREA
Baltimore                                 11             31       14          23            14              93
Capital                                     8          29         11          32            21          101
Greater South Carolina                      8          27         13          20            12              80
Greensboro                                16           31         10          27            14              98
Mid-Carolinas                             11           30         11          28            12              92
Northern Virginia                         10           26         13          21            14              84
Richmond                                  17           31         13          21            15              97
                                                 EASTERN AREA
Appalachian                               16          27          14          19            13              89
Central Pennsylvania                      18           41         13          29            19          120
Cincinnati                                15           42         12          27            16          112
Columbus                                  10           20         13          19            11              73
Kentuckiana                               16           32         12          26            13              99
Northern Ohio                             16           37         13          32            17          115
Philadelphia Metropolitan                 13           34         12          35            20          114
South Jersey                              12           40         13          29            15          109
Western New York                          12           26         12          24            13              87
Western Pennsylvania                      20           40         13          31            14          118
                                                GREAT LAKES AREA
Central Illinois                          17           43        14           33            21          128
Chicago                                     9          34         10          31            17          101
Detroit                                   13           26         11          24            12              86
Gateway                                   13           43         13          35            15          119
Greater Indiana                           17           48         10          30            16          121
Greater Michigan                          16           35         13          23            14          101
Lakeland                                  13           42         14          34            22          125
Northern Illinois                         11           28         12          31            13              95
Southeast Michigan                        12           22         11          20            12              77
                                                NORTHEAST AREA
Albany                                    14          25          10          24            12              85
Caribbean                                   7          15         10          14                9           55
Connecticut Valley                        16           43         13          41            24          137
Greater Boston                            14           45         15          37            20          131
Long Island                               11           26         14          26            18              95
New York                                  10           38         14          42            26          130
Northern New England                      18           28         15          22            13              96
Northern New Jersey                       19           53         17          48            22          159
Southeast New England                     12           29         12          24            14              91
Triboro                                   14           34         16          40            22          126


26
     As of October 24, 2009.




                                                        29
Postal Service Area and District Office Field Structure                                    FF-AR-10-224(R)



                                                  Number of Employees by Function26
                            Administrative   Operations
                             /Information     Program                  Human
                               Systems        Support      Finance    Resources    Marketing     Total
Westchester                             11            21         12           22           14            80
                                                PACIFIC AREA
Bay-Valley                             13             34         12           28          16         103
Honolulu                                5            12          10          11            9             47
Los Angeles                             9            29          10          28           14             90
Sacramento                             15            40          13           24          13         105
San Diego                              13            34          12           30          14         103
San Francisco                          11            30          12          29           14             96
Santa Ana                              13            42          13           31          19         118
Sierra Coastal                         16            45          12           26          16         115
                                             SOUTHEAST AREA
Alabama                                18          34            12          22           14         100
Atlanta                                13            36          15           30          18         112
Mississippi                            11            20           9          16           13             69
North Florida                          15            33          12           26          12             98
South Florida                          18            45          15           33          16         127
South Georgia                          14            20          10           17           7             68
Suncoast                               21            66          15          34           22         158
Tennessee                              20            49          16           31          19         135
                                             SOUTHWEST AREA
Albuquerque                             9          14             9           12           7             51
Arkansas                               13            21          12          19           10             75
Dallas                                 16            40          13           36          16         121
Fort Worth                             12            28          12           20          13             85
Houston                                13            34          13           26          13             99
Louisiana                              13            33          13          27           11             97
Oklahoma                               15            25          13           21          12             86
Rio Grande                             17            49          14           30          17         127
                                               WESTERN AREA
Alaska                                  7           13           11            9           9             49
Arizona                                16            37          14          25           16         108
Big Sky                                 8            11           9            9           6             43
Central Plains                         19            36          15           24          15         109
Colorado/Wyoming                       19            44          15          32           20         130
Dakotas                                12            25          12           13          10             72
Hawkeye                                18            31          14           25          11             99
Mid-America                            14            41          10          22           15         102
Nevada-Sierra                           9            23          10           15          12             69
Northland                              19            48          16           33          23         139
Portland                               15            30          12           22          13             92
Salt Lake City                         13            22          12          16           11             74
Seattle                                18            45          15           28          17         123
Function Total                       1,016        2,441         930        1,924        1,102      7,413
Source: Postal Service Human Resources Management Information Services.




                                                      30
Postal Service Area and District Office Field Structure                                              FF-AR-10-224(R)



        Table 9: FY 2009 Costs to Support Area and District Offices by Office

            Areas and Districts             Costs                   Areas and Districts           Costs
        CAPITAL METRO AREA                  $18,302,562         PACIFIC AREA                       26,544,638
        Baltimore                             12,905,146        Bay-Valley                         20,761,653
        Capital                               18,394,724        Honolulu                             8,409,042
        Greater South Carolina                14,425,364        Los Angeles                        13,647,938
        Greensboro                            14,307,718        Sacramento                         21,943,639
        Mid-Carolinas                         15,658,481        San Diego                          32,449,060
        Northern Virginia                     11,775,435        San Francisco                      24,962,987
        Richmond                              14,062,250        Santa Ana                          21,377,177
        EASTERN AREA                          11,822,352        Sierra Coastal                     19,925,002
        Appalachian                           13,705,434        SOUTHEAST AREA                     22,310,006
        Central Pennsylvania                  15,671,773        Alabama                            16,334,349
        Cincinnati                            12,128,523        Atlanta                            22,069,976
        Columbus                              11,595,944        Central Florida                    11,494,977
        Erie                                   5,731,761        Mississippi                        10,499,657
        Kentuckiana                           14,345,642        North Florida                      13,588,065
        Northern Ohio                         14,874,580        South Florida                      15,275,083
        Philadelphia Metropolitan             19,523,127        South Georgia                        9,517,771
        South Jersey                          11,474,702        Suncoast                           17,861,772
        Western Pennsylvania                  12,275,557        Tennessee                          19,045,347
        GREAT LAKES AREA                      33,541,609        SOUTHWEST AREA                     26,257,237
        Central Illinois                      19,420,378        Albuquerque                        10,322,773
        Chicago                               19,706,648        Arkansas                           11,144,798
        Detroit                               22,373,698        Dallas                             18,162,059
        Gateway                               20,257,579        Fort Worth                         16,681,288
        Greater Indiana                       20,737,224        Houston                            22,563,203
        Greater Michigan                      12,513,541        Louisiana                          17,765,203
        Lakeland                              24,760,708        Oklahoma                           17,058,218
        Northern Illinois                     23,905,565        Rio Grande                         17,338,187
        Southeast Michigan                    14,560,732        WESTERN AREA                       28,364,776
        NEW YORK METRO AREA                   22,875,619        Alaska                               8,870,004
        Caribbean                             13,952,715        Arizona                            25,910,952
        Central New Jersey                    11,667,770        Big Sky                              7,735,253
        Long Island                           19,661,487        Central Plains                     14,147,861
        New York                              27,958,780        Colorado/Wyoming                   30,688,009
        Northern New Jersey                   21,082,942        Dakotas                              8,458,830
        Triboro                               19,259,971        Hawkeye                            13,517,133
        Westchester                           14,848,643        Mid-America                        12,269,747
        NORTHEAST AREA                        21,760,411        Nevada-Sierra                      13,161,276
        Albany                                17,942,075        Northland                          17,825,515
        Connecticut Valley                    13,669,889        Portland                           15,892,319
        Greater Boston                        18,110,418        Salt Lake City                     12,937,331
        Massachusetts                         14,543,497        Seattle                            16,406,832
        New Hamphsire/ Vermont                 7,990,776        Spokane                              7,364,841
        Northern New England                   9,577,580
        Southeast New England                 12,623,654
        Western New York                      14,999,882
                                                                Total for Areas and Districts   $1,496,146,560
        Source: Postal Service Integrated Financial Planning.




                                                           31
Postal Service Area and District Office Field Structure           FF-AR-10-224(R)



                              APPENDIX E: MANAGEMENT’S COMMENTS




                                                      32
Postal Service Area and District Office Field Structure    FF-AR-10-224(R)




                                                      33
Postal Service Area and District Office Field Structure    FF-AR-10-224(R)




                                                      34
Postal Service Area and District Office Field Structure    FF-AR-10-224(R)




                                                      35
